U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Harold Gashe v. United States, No. 20-8284
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 19, 2021.
The government’s response is now due, after one extension, on October 12, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 11, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8284
GASHE, HAROLD
USA

HAROLD GASHE
03501-029
PO BOX 3000
FORREST CITY, AR 72336

